          EVALUATION REPORT

                Inspector General‘s Assessment of the
              Most Serious Management and Performance
                        Challenges Facing NRC


                      OIG-13-A-01 October 1, 2012




All publicly available OIG reports (including this report) are accessible through
                              NRC‘s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                UNITED STATES
                        NUCLEAR REGULATORY COMMISSION
                                WASHINGTON, D.C. 20555-0001




OFFICE OF THE
INSPECTOR GENERAL


                                                 October 1, 2012


MEMORANDUM TO:            Chairman Macfarlane



FROM:                     Hubert T. Bell /RA/
                          Inspector General


SUBJECT:                  INSPECTOR GENERAL’S ASSESSMENT OF THE MOST
                          SERIOUS MANAGEMENT AND PERFORMANCE
                          CHALLENGES FACING NRC (OIG-13-A-01)


The Reports Consolidation Act of 2000 requires the Inspector General of each Federal
agency to annually summarize what he or she considers to be the most serious management
and performance challenges facing the agency and to assess the agency’s progress in
addressing those challenges. In accordance with the act, I identified seven management and
performance challenges confronting the Nuclear Regulatory Commission that I consider to be
the most serious.

We appreciate the cooperation extended to us during this evaluation. If you have any
questions, please contact Stephen D. Dingbaum, Assistant Inspector General for Audits, at
415-5915 or me at 415-5930.

Attachment: As stated
   Inspector General‘s Assessment of the Most Serious Management and Performance Challenges Facing NRC




EXECUTIVE SUMMARY

   BACKGROUND

           The Reports Consolidation Act of 2000 requires Federal agency
           Inspectors General (IG) to annually summarize what they consider to be
           the most serious management and performance challenges facing their
           agency and to assess the agency‘s progress in addressing those
           challenges.

   OBJECTIVE

           In accordance with the act, the IG at the U.S. Nuclear Regulatory
           Commission (NRC) updated what he considers to be the most serious
           management and performance challenges facing NRC. The IG
           considered the overall work of the Office of the Inspector General (OIG),
           the OIG staff‘s general knowledge of agency operations, and other
           relevant information to develop and update his list of management and
           performance challenges and assess the agency‘s progress in addressing
           the challenges. In addition, OIG staff sought input from NRC‘s Chairman,
           Commissioners, and management to obtain their views on what
           challenges the agency is facing and what efforts the agency has taken or
           are underway or planned to address previously identified management
           and performance challenges.

   RESULTS IN BRIEF

           The IG identified seven challenges that he considers the most serious
           management and performance challenges facing NRC. The challenges identify
           critical areas or difficult tasks that warrant high-level management attention.

           The following chart provides an overview of the seven most serious
           management and performance challenges facing NRC as of October 1,
           2012.




                                                i
     Inspector General‘s Assessment of the Most Serious Management and Performance Challenges Facing NRC




  Most Serious Management and Performance Challenges Facing the Nuclear
  Regulatory Commission as of October 1, 2012*
  (as identified by the Inspector General)

  Challenge 1          Management of regulatory processes to meet a changing
                       environment in the oversight of nuclear materials.

  Challenge 2          Management of internal NRC security and oversight of licensee
                       security programs.

  Challenge 3          Management of regulatory processes to meet a changing
                       environment in the oversight of nuclear facilities.

  Challenge 4          Management of issues associated with the safe storage of
                       high-level radioactive waste when there is no long-term
                       disposal solution.

  Challenge 5          Management of information technology.

  Challenge 6          Administration of all aspects of financial management and
                       procurement.

  Challenge 7          Management of human capital.



  *The most serious management and performance challenges are not
  ranked in any order of importance.




CONCLUSION

             The seven challenges contained in this report are distinct, yet
             interdependent relative to the accomplishment of NRC‘s mission. For
             example, the challenge of managing human capital affects all other
             management and performance challenges.




                                                  ii
Inspector General‘s Assessment of the Most Serious Management and Performance Challenges Facing NRC



        The agency‘s continued progress in taking actions to address the
        challenges presented should facilitate achieving the agency‘s mission and
        goals.




                                            iii
   Inspector General‘s Assessment of the Most Serious Management and Performance Challenges Facing NRC




ABBREVIATIONS AND ACRONYMS



           CUI          controlled unclassified information

           CUIO         controlled unclassified information office

           FAIMIS       Financial Accounting and Integrated Management Information
                        System

           FY           fiscal year

           IG           Inspector General

           ISFSI        independent spent fuel storage installation

           IT           information technology

           NRC          U.S. Nuclear Regulatory Commission

           OIG          Office of the Inspector General

           OMB          Office of Management and Budget

           SGI          safeguards information

           SDP          significance determination process

           SUNSI        sensitive unclassified non-safeguards information




                                               iv
   Inspector General‘s Assessment of the Most Serious Management and Performance Challenges Facing NRC




TABLE OF CONTENTS

    EXECUTIVE SUMMARY ....................................................................................... i

    ABBREVIATIONS AND ACRONYMS .................................................................. iv

    I. BACKGROUND .............................................................................................. 1

    II. OBJECTIVE .................................................................................................... 1

    III. EVALUATION RESULTS ................................................................................ 1


    Challenge 1          Management of regulatory processes to meet a changing
                         environment in the oversight of nuclear materials ........................ 4

    Challenge 2          Management of internal NRC security and oversight of licensee
                         security programs ......................................................................... 7

    Challenge 3          Management of regulatory processes to meet a changing
                         environment in the oversight of nuclear facilities .......................... 9

    Challenge 4          Management of issues associated with the safe storage of high-
                         level radioactive waste when there is no long-term disposal
                         solution ....................................................................................... 13

    Challenge 5          Management of information technology ..................................... 15

    Challenge 6          Administration of all aspects of financial
                         management and procurement .................................................. 17

    Challenge 7          Management of human capital ................................................... 19


    IV. CONCLUSION .............................................................................................. 21




                                                         v
Inspector General‘s Assessment of the Most Serious Management and Performance Challenges Facing NRC



APPENDIXES

A. OBJECTIVE, SCOPE, AND METHODOLOGY ............................................. 22

B. CHANGES TO THE MANAGEMENT AND PERFORMANCE
   CHALLENGES IN 2012 ................................................................................ 23

C. OIG REPORTS AND AGENCY ACTIONS ADDRESSING THE
   MANAGEMENT AND PERFORMANCE CHALLENGES .............................. 24




                                               vi
       Inspector General‘s Assessment of the Most Serious Management and Performance Challenges Facing NRC




I.     BACKGROUND

              On January 24, 2000, Congress enacted the Reports Consolidation Act of
              2000, requiring Federal agencies to provide financial and performance
              management information in a more meaningful and useful format for
              Congress, the President, and the public. The act requires the Inspector
              General (IG) of each Federal agency to annually summarize what he or
              she considers to be the most serious management and performance
              challenges facing the agency and to assess the agency‘s progress in
              addressing those challenges.



II.    OBJECTIVE

              In accordance with the Reports Consolidation Act of 2000, the U.S. Nuclear
              Regulatory Commission (NRC) IG updated what he considers to be the
              most serious management and performance challenges facing the agency.
              The IG considered the overall work of the Office of the Inspector General
              (OIG), the OIG staff‘s general knowledge of agency operations, and other
              relevant information to develop and update his list of management and
              performance challenges and assess the agency‘s progress in addressing
              these challenges.

              In addition, OIG staff sought input from NRC‘s Chairman, Commissioners,
              and management to obtain their views on what challenges the agency is
              facing and what efforts the agency has taken or are underway or planned
              to address previously identified management and performance challenges.
              Appendix A contains additional information on the evaluation scope and
              methodology.



III.   EVALUATION RESULTS

              The NRC‘s mission is to license and regulate the Nation‘s civilian use of
              byproduct, source, and special nuclear materials to ensure adequate
              protection of public health and safety, promote the common defense and
              security, and protect the environment. Like other Federal agencies, NRC
              faces management and performance challenges in carrying out its mission.

                                                   1
       Inspector General‘s Assessment of the Most Serious Management and Performance Challenges Facing NRC



              Determination of Management and Performance Challenges

              Congress left the determination and threshold of what constitutes a most
              serious management and performance challenge to the discretion of the
              IGs. As a result, the IG applied the following definition in identifying
              challenges:

Serious management and performance challenges are mission critical areas or programs
that have the potential for a perennial weakness or vulnerability that, without substantial
management attention, would seriously impact agency operations or strategic goals.



              Based on this definition, in 2012, the IG assessed the most serious
              management and performance challenges facing NRC and identified seven
              challenges that he considered most serious. The challenges identify critical
              areas or difficult tasks that warrant high-level management attention. (See
              Appendix B of this report for a discussion of the changes between the 2011 list
              of challenges and the current list.)

              The following chart provides an overview of the seven most serious
              management and performance challenges as of October 1, 2012.




                                                   2
  Inspector General‘s Assessment of the Most Serious Management and Performance Challenges Facing NRC




Most Serious Management and Performance Challenges Facing the Nuclear
Regulatory Commission as of October 1, 2012*
(as identified by the Inspector General)

Challenge 1        Management of regulatory processes to meet a changing
                   environment in the oversight of nuclear materials.

Challenge 2        Management of internal NRC security and oversight of licensee
                   security programs.

Challenge 3        Management of regulatory processes to meet a changing
                   environment in the oversight of nuclear facilities.

Challenge 4        Management of issues associated with the safe storage of
                   high-level radioactive waste when there is no long-term
                   disposal solution.

Challenge 5        Management of information technology.

Challenge 6        Administration of all aspects of financial management and
                   procurement.

Challenge 7        Management of human capital.



*The most serious management and performance challenges are not
ranked in any order of importance.




                                              3
        Inspector General‘s Assessment of the Most Serious Management and Performance Challenges Facing NRC



CHALLENGE 1
Management of regulatory processes to meet a changing environment in the
oversight of nuclear materials.

                Overview

                NRC is responsible for maintaining an established regulatory framework for
                the safe and secure use of nuclear materials; medical, industrial, and
                academic applications; uranium recovery activities; and low-level
                radioactive waste sites. NRC is authorized to grant licenses for the
                possession and use of radioactive materials and establish regulations to
                govern the possession and use of those materials. Agency regulations
                require that certain material licensees have extensive material control and
                accounting programs as a condition of their licenses. Other license
                applicants (including those requesting authorization to possess small
                quantities of special nuclear materials1) must develop and implement plans
                that demonstrate a commitment to accurately control and account for
                radioactive materials. Upon a State‘s request, NRC may enter into an
                agreement to relinquish its authority to the State to regulate certain
                radioactive materials and limited quantities of special nuclear material. The
                State must demonstrate that its regulatory program is adequate to protect
                public health and safety and compatible with NRC‘s program. The States
                that enter into an agreement assuming this regulatory authority from NRC
                are called Agreement States. Currently, there are 37 Agreement States.




1
 Special nuclear material, as defined by Title 1 of the Atomic Energy Act of 1954, is plutonium, uranium-
233, or uranium enriched in the isotopes uranium-233 or uranium-235.

                                                     4
Inspector General‘s Assessment of the Most Serious Management and Performance Challenges Facing NRC



       Issues

                Ensure appropriate oversight of radioactive material. This includes
                the implementation of the National Source Tracking System, Web
                Based Licensing, and the Licensing Verification System to ensure
                the accurate tracking and control of byproduct material, especially
                those materials with the greatest potential to impact public health
                and safety.

                Ensure that radioactive material is adequately protected to preclude
                its use for malicious purposes.

                Ensure appropriate oversight of nuclear materials used in medicine.

                Ensure reliable accounting of special nuclear materials in the NRC
                and Department of Energy jointly managed Nuclear Materials
                Management and Safeguards System.

                Ensure the appropriate oversight of uranium recovery facilities. The
                Department of Energy is responsible for cleanup and remediation of
                these sites under an NRC general license.

                Ensure the management and safe storage and disposal of low-level
                radioactive waste produced as a result of NRC-licensed activities.
                All current low-level waste disposal sites are regulated by
                Agreement States.

                Ensure that Agreement State programs are adequate to protect
                public health and safety and the environment, and are compatible
                with NRC‘s program.

       Assessment

       During FY 2012, OIG audited several areas dealing with NRC‘s oversight
       of nuclear materials. Regarding NRC‘s oversight of industrial radiography,
       OIG found four distinct areas where NRC could improve. OIG found that
       radiography licenses do not clearly or consistently indicate what activities
       licensees are authorized to conduct or where they may conduct them, the



                                            5
Inspector General‘s Assessment of the Most Serious Management and Performance Challenges Facing NRC



       agency‘s inspection program guidance lacks needed specificity, temporary
       job site inspections are not being conducted as often as possible, and NRC
       has an inconsistent approach for inspecting NRC licensee facilities in
       Agreement States.

       OIG conducted two audits concerning general licenses. In its first audit,
       OIG identified that general licensed devices could contain dangerous
       radioactive sources even though persons with no radiation training or
       experience were allowed to operate the devices. In the second audit, OIG
       found that many general licensees are unaware of NRC‘s regulatory
       requirements for general licensed devices increasing the probability that
       accountability of such devices will decrease, placing public health and
       safety and the environment at risk.

       Since FY 2003, OIG has been tracking NRC‘s progress regarding the
       reliable accounting of special nuclear materials. While the agency has
       made some progress, it still needs to conduct periodic inspections to verify
       that material licensees comply with material control and accounting
       requirements as well as document the basis of the approach used to risk
       inform NRC‘s oversight of material control and accountability activities for
       all types of materials licensees.

       During FY 2012, OIG‘s audit on the oversight of uranium recovery facilities
       disclosed two opportunities for more effective oversight. OIG found that
       the agency needs to improve its compliance with the terms of the site-
       specific memoranda of understanding it has with the Environmental
       Protection Agency and NRC needs to reduce its reliance on the
       Department of Energy‘s inspection program to alert NRC to problems at
       decommissioned uranium recovery sites in Department of Energy custody.

       During FY 2012, OIG reviewed and found acceptable the agency‘s
       implementation and availability of the National Enforcement Database Web
       Site, which provides a standardized data collection process that can be
       used as the basis for an information sharing tool among NRC and
       Agreement States.

       Appendix C provides a list of OIG FY 2012 reports relevant to this
       challenge and examples of agency actions addressing the challenge.



                                            6
      Inspector General‘s Assessment of the Most Serious Management and Performance Challenges Facing NRC



CHALLENGE 2
Management of internal NRC security and oversight of licensee security programs.

             Overview

             NRC must remain vigilant of the security of its own infrastructure and that
             of nuclear facilities and nuclear material. Ensuring predictability in the
             security environment is an ongoing challenge for NRC. NRC must
             continue to use robust, proactive measures to protect its infrastructure –
             the buildings, personnel, and information – from both internal and external
             threats. Moreover, as the nature of the threat continues to evolve, NRC
             faces challenges with protecting nuclear facilities and materials, the
             constant sharing of sensitive information, as well as emergency
             preparedness and incident response.

             Issues

                      Review and strengthen internal physical and information security
                      programs to protect NRC assets (e.g., NRC headquarters and
                      regional facilities, safeguards and classified information, and
                      information systems).

                      Manage information in accordance with new Federal Government
                      policies for designating, marking, safeguarding, and disseminating
                      controlled unclassified information (CUI).

                      Review and strengthen physical and cyber security inspection
                      programs to protect licensee owned assets (e.g., facility designs,
                      technology descriptions, dual use material and components,
                      safeguards and classified information) from compromise.

                      Review nuclear power plant emergency preparedness oversight.

             Assessment

             During FY 2012, OIG auditors found that while NRC has made
             improvements to the safeguards information (SGI) program, NRC lacked a
             structured process for tracking SGI releases, lacked guidance on granting



                                                  7
        Inspector General‘s Assessment of the Most Serious Management and Performance Challenges Facing NRC



                ―outsiders‖ access to SGI, and had inadequate business processes over
                the SGI designator role. OIG also found that while the information systems
                security program has improved, the agency‘s plan of action and milestones
                still needs improvement, the agency has not developed an organization-
                wide risk management strategy, and configuration management
                procedures are not consistently implemented.

                OIG found sensitive unclassified non-safeguards information (SUNSI)2 on
                an NRC shared drive. NRC has not yet fully implemented quality
                assurance checks following network upgrades to ensure that access
                controls are preserved in shared network drives that process documents
                containing SUNSI/CUI.

                OIG identified that a more systematic approach to analyzing security
                findings data beyond the regional level can help NRC staff better identify
                licensee performance trends. Further, periodic reviews of the significance
                determination process (SDP) assessment tools and systemic testing of
                new and revised SDP assessment tools can help staff apply SDP
                assessment tools in a more transparent and consistent manner.

                As part of issue area monitoring, OIG reviewed the agency‘s cyber security
                roadmap to understand the status of the staff‘s approach for evaluating
                cyber security at power reactor licensees and combined operating license
                applicants.

                An OIG investigation completed during FY 2012 concerning a contractor‘s
                mishandling of NRC employee personally identifiable information (PII)
                identified a shortcoming in NRC‘s contractual arrangement for the
                contractor to routinely provide PII to the Office of Personnel Management.
                OIG determined that the contractual arrangement did not adequately
                address the retention and destruction of NRC employee PII data.

                Appendix C provides a list of OIG FY 2012 reports relevant to this
                challenge and examples of agency actions addressing the challenge.

2
 SUNSI is any information of which the loss, misuse, modification, or unauthorized access can reasonably
be foreseen to harm the public interest, the commercial or financial interests of the entity or individual to
whom the information pertains, the conduct of NRC and Federal programs, or the personal privacy
of individuals. SUNSI includes allegation information, security-related information, Privacy Act
information, among others. SUNSI will be included under the new CUI categorization of
Government information.

                                                     8
      Inspector General‘s Assessment of the Most Serious Management and Performance Challenges Facing NRC



CHALLENGE 3
Management of regulatory processes to meet a changing environment in the
oversight of nuclear facilities.

             Overview

             NRC faces the challenge of maintaining its core regulatory programs while
             adapting to changes in its regulatory environment. NRC must address a
             highly variable interest in licensing and constructing new nuclear power
             plants to meet the Nation‘s increasing demands for energy production. As
             of July 2012, NRC had received 18 Combined License applications, 10 of
             which NRC was actively reviewing. Moreover, the agency is reviewing two
             standard design certifications and, for advanced reactors, expects to
             receive two design certification applications and one construction permit
             application through 2014.

             While responding to the emerging demands associated with licensing and
             regulating new reactors, NRC must maintain focus and effectively carry out
             its current regulatory responsibilities, such as inspections of the current
             fleet of operating nuclear reactors and fuel cycle facilities. NRC intends to
             increase its safety focus on licensing and oversight activities through risk-
             informed and performance-based regulation.

             Further, the U.S. Court of Appeals for the District of Columbia Circuit ruled
             in June 2012 that NRC‘s waste-confidence decision had not adequately
             addressed all environmental effects and thus violated the National
             Environmental Policy Act. In September 2012, the Commission directed
             the NRC staff to develop, within the next 24 months, an environmental
             impact statement, a revised waste confidence decision, and a rule on the
             temporary storage of spent nuclear fuel. While agency staff believe that
             the license application review activities and ongoing plant construction will
             not be delayed by the court ruling, the ultimate impact on final licensing
             decisions and new construction approvals is yet to be determined.




                                                  9
Inspector General‘s Assessment of the Most Serious Management and Performance Challenges Facing NRC



       Issues

       New Facilities

                Implement the new Construction Inspection Program.

                     Risk-inform Construction Inspection Program activities to
                      ensure the safe operation of newly constructed nuclear
                      facilities.

                     Ensure that the NRC staff has the necessary knowledge and
                      skill to successfully implement the program.

                As the public‘s demand for new energy sources continues, NRC
                must ensure that the process for reviewing applications for new
                facilities focuses on safety and effectiveness.

                As the sources of manufactured reactor components become more
                globalized, NRC must ensure that its regulations and oversight
                activities appropriately address the challenges associated with
                licensees procuring components from suppliers located outside the
                United States.

       Existing Fleet

                Ensure that NRC maintains the ability to effectively review licensee
                applications for license renewals and power uprates submitted by
                industry in response to the Nation‘s increasing demands for energy
                production.

                Respond to a heightened public focus on license renewals resulting
                in contested hearings.

                Ensure the ability to identify emerging operating and safety issues at
                all plants, including issues associated with license renewal and
                power uprates; consistently apply regulatory and review changes in
                response to these emerging issues across the existing fleet of
                reactors.



                                           10
Inspector General‘s Assessment of the Most Serious Management and Performance Challenges Facing NRC



                Establish and maintain effective, stable, and predictable regulatory
                programs or policies for all programs.


       Cross-Cutting Issues

                Systematically identify and develop, and consistently implement
                internal controls to ensure effectiveness and efficiency of agency
                operations and resources.

                Identify and improve weak, informal, or unstructured processes to
                facilitate effective, efficient, and consistent staff activities.

                Improve the clarity, consistency, and comprehensiveness of
                guidance for NRC staff such as the Inspection Manual and
                inter/intra-office guidance.


       Assessment

       During FY 2012, OIG auditors identified a variety of needs related to new
       facility construction oversight:

                Guidance and training: OIG found that the agency did not have
                formal guidelines governing the use of key documents used in
                construction inspection, and had not established procedures for
                updating the key documents and communicating the changes to
                agency stakeholders. NRC also lacked guidance for some types of
                inspection activity and needed to clarify stakeholder roles and
                responsibilities. Furthermore, NRC needs to design construction
                inspection training programs through a formalized needs
                assessment to ensure that agency staff is receiving appropriate and
                useful training.

                Inspection activity tracking: OIG found that one of the agency‘s
                database tools to document new reactor construction activities
                suffered from development delays and inaccurate cost accounting.
                The agency needs to take specific steps to improve oversight of



                                           11
Inspector General‘s Assessment of the Most Serious Management and Performance Challenges Facing NRC



                development of the database.

                Manufactured reactor components: OIG found that NRC has not
                developed a formal strategy for evaluating what inspections are
                necessary at modular assembly facilities located away from the
                plant construction site. Furthermore, NRC needs to develop an
                interoffice inspection coordination strategy to ensure appropriate
                inspections of modular systems, structures, and components
                assembled or manufactured offsite.

                Interoffice coordination: OIG found a lack of sustained coordination
                both within headquarters and between headquarters and Region II
                for new-construction program related activities and interactions.
                These problems would have been minimized if NRC had in place
                formalized change management processes to address
                communications and coordination problems in a changing
                environment.

       With regard to the existing fleet, OIG auditors concurred with agency
       proposals in response to OIG recommendations to clarify the guidance
       regarding the process the agency uses to track licensee commitments.
       OIG auditors also noted improvements the agency made to its nuclear
       component vendor oversight program, including vendor inspection
       planning, communications with vendors, and agencywide coordination in
       monitoring for and evaluating counterfeit, fraudulent, and suspect nuclear
       components. However, OIG auditors found weaknesses in NRC‘s
       guidance and compliance with the guidance for the issuance of
       confirmatory action letters, a regulatory tool for confirming a licensee's
       agreement to take certain actions to remove significant concerns about
       health and safety, safeguards, or the environment. NRC needs a
       centralized control point for agencywide oversight and implementation of a
       fully effective confirmatory action letter process.

       Appendix C provides a list of OIG FY 2012 reports relevant to this
       challenge and examples of agency actions addressing the challenge.




                                           12
      Inspector General‘s Assessment of the Most Serious Management and Performance Challenges Facing NRC



CHALLENGE 4
Management of issues associated with the safe storage of high-level radioactive
waste when there is no long-term disposal solution.

             Overview

             NRC regulates high-level radioactive waste generated from commercial
             nuclear power reactors. High-level radioactive waste is either spent (used)
             reactor fuel when it is accepted for disposal or waste materials remaining
             after spent fuel is reprocessed. Because of its highly radioactive fission
             products, high-level radioactive waste must be handled and stored with
             care. Since the only way radioactive waste finally becomes harmless is
             through decay, which for high-level waste can take hundreds of thousands
             of years, the waste must be stored and finally disposed of in a way that
             provides adequate protection of the public for a very long time.

             The United States has entered a period where the national policy for
             storing, reprocessing, and disposal of spent nuclear fuel is being
             reexamined. With the prospect of spent nuclear fuel being stored at reactor
             sites for the foreseeable future due to the uncertainty surrounding a
             permanent repository for high-level radioactive waste, NRC has been
             reviewing the issues associated with long-term storage. An independent
             spent fuel storage installation (ISFSI) is an NRC–licensed facility designed
             and constructed for the interim storage of spent nuclear fuel and other
             radioactive materials associated with the spent fuel. An ISFSI typically
             consists of a concrete storage pad, storage containers (casks), and any
             support facilities. As of August 2012, there were ISFSIs storing spent
             nuclear fuel or preparing to store spent nuclear fuel in the near term at 62
             different locations across the United States. Of these ISFSI sites, 52 were
             located at operating reactors and the remaining 10 were located away from
             an operating reactor.

             In 2010, NRC updated its Waste Confidence Decision—affirming that spent
             nuclear fuel could be safely stored onsite at nuclear power plants until a
             permanent waste repository is built. However, in June 2012, the U.S.
             Court of Appeals for the District of Columbia Circuit ruled that NRC‘s
             waste-confidence decision had not adequately addressed all environmental
             effects and thus violated the National Environmental Policy



                                                 13
Inspector General‘s Assessment of the Most Serious Management and Performance Challenges Facing NRC



       Act. The Commission affirmed that the agency will not issue licenses
       dependent upon the Waste Confidence Decision until the court‘s remand is
       appropriately addressed.

       Issues

                Ensure safe and secure interim storage for increasing quantities of
                high-level radioactive waste for the foreseeable future until a
                permanent repository for high-level radioactive waste is operational.

                Address regulatory issues relative to a longer-than-anticipated time
                for interim storage of high-level waste.

                Maintain flexibility to address regulatory challenges related to the
                storage and transportation of spent nuclear fuel and high-level
                waste.

       Assessment

       In FY 2011, OIG audited the safety aspect of NRC‘s oversight of ISFSIs
       and identified areas where the agency could improve. OIG found that there
       is no formalized agencywide training program for ISFSI safety inspectors.
       When ISFSI safety inspectors do not have a consistent understanding of
       agency inspection requirements, oversight can be compromised.
       Specifically, there is an increased potential for inadequate inspections to
       occur, which could result in an increased risk to public health and safety.
       In response to OIG‘s finding, NRC is developing training for ISFSI safety
       inspectors. OIG also found that the period between routine ISFSI
       inspections varies among regions from 1 to almost 6 years. The inspection
       frequencies vary because the frequency required to conduct routine ISFSI
       inspections is not clearly defined. Routine ISFSI safety inspections could
       be delayed indefinitely without clearly defined inspection frequency
       guidance, potentially increasing the risk to public health and safety. In
       response to OIG‘s finding, NRC staff is revising its inspection manual
       establishing a minimum frequency for conducting routine ISFSI safety
       inspections.

       Appendix C provides a list of OIG FY 2012 reports relevant to this
       challenge and examples of agency actions addressing the challenge.


                                           14
        Inspector General‘s Assessment of the Most Serious Management and Performance Challenges Facing NRC



CHALLENGE 5
Management of information technology.

               Overview

               NRC needs to continue upgrading and modernizing its information
               technology (IT) capabilities to meet its IT/information management strategic
               goals. These goals include ensuring NRC staff have quick and easy
               access to information, providing IT solutions that are easy to use and
               increase agency program performance, and delivering excellent service.

               Issues

                        Upgrade or adopt information technology activities to improve the
                        productivity, efficiency, and effectiveness of agency programs and
                        operations.

                        Expand mobile computing – ―working from anywhere‖ – options such
                        as remote access from NRC-issued laptops, non-NRC computers,
                        and hand-held devices including a ―bring your own devices‖ pilot
                        program to allow for the distributed work locations of NRC staff.

                        Improve information retrieval with better categorization and
                        organization, enterprise content management, and improved search
                        capabilities.

                        Enhance ―working with anyone‖ capabilities to include virtual
                        meeting and collaboration tools with internal and external
                        stakeholders including licensees and the public.

               Assessment

               As part of the OIG‘s Issue Area Monitor program,3 OIG reviewed the
               agency‘s pilot program for Quick Response codes. Quick Response code
               is a two-dimensional code that has fast readability and large storage
               capacity compared to standard barcodes. In August 2011, Region III


3
 Under the Issue Area Monitor Program, OIG staff assigned to various issue areas monitor agency
performance on these management challenges.

                                                   15
        Inspector General‘s Assessment of the Most Serious Management and Performance Challenges Facing NRC



                began implementing a 3-month initiative to evaluate the feasibility and
                effectiveness of using Quick Response codes. Region III concluded that
                the continued use of Quick Response codes would be of benefit to the
                NRC in its efforts to conduct business in an open and transparent manner,
                while seeking innovative methods to communicate with external
                stakeholders.

                OIG is reviewing NRC‘s data center consolidation initiative,4 IT acquisition
                program improvements, and IT asset review process5 per Office of
                Management and Budget guidance and policy. OIG is also currently
                reviewing the operational capabilities and performance of an NRC
                information support system - SLES.6

                Appendix C provides a list of OIG FY 2012 reports relevant to this
                challenge and examples of agency actions addressing the challenge.




4
  NRC is pursuing consolidation of data center assets in response to the Federal Data Center
Consolidation Initiative (FDCCI) guidance published by the Office of Management and Budget (OMB). The
FDCCI aims to promote the use of Green IT, reduce costs of data center hardware, increase overall IT
security posture, and shift IT investments to more efficient computing platforms and technologies.
5
  NRC is in the process of reengineering its IT governance process and IT asset review process in
response to OMB guidance. The 25-Point Implementation Plan to Reform Federal Information Technology
Management requires agencies to reform and strengthen IT investment review boards and to implement
an IT review process called TechStat. TechStat sessions are face-to-face evidence-based reviews of IT
programs. The goal of these sessions is to determine whether to turn around, halt, or terminate
investments that do not provide value to U.S. citizens.
6
  SLES - the Safeguards Information Local Area Network and Electronic Safe – is NRC‘s secure content
management system for safeguards information. Safeguards information is defined as information the
disclosure of which could reasonably be expected to have a significant adverse effect on the health and
safety on the public and/or common defense and security by significantly increasing the likelihood of theft,
diversion, or sabotage of materials or facilities subject to NRC jurisdiction.

                                                    16
      Inspector General‘s Assessment of the Most Serious Management and Performance Challenges Facing NRC



CHALLENGE 6
Administration of all aspects of financial management and procurement.

             NRC management is responsible for meeting the objectives of several
             statutes, including the Federal Managers‘ Financial Integrity Act. This act
             mandates that NRC establish controls that reasonably ensure that
             (1) obligations and costs comply with applicable law; (2) assets are
             safeguarded against waste, loss, unauthorized use, or misappropriation;
             and (3) revenues and expenditures are properly recorded and accounted
             for. This act encompasses program operational and administrative areas,
             as well as accounting and financial management.

             NRC‘s procurement of goods and services must be made with an aim to
             achieve the best value for the agency‘s dollars in a timely manner. Agency
             policy provides that NRC‘s procurement of goods and services should
             support the agency‘s mission; be planned, awarded, and administered
             efficiently and effectively; and be consistent with sound business practices
             and contracting principles. Agency efforts are currently focused on the
             goals of achieving (1) a 21st century acquisition program that uses state-of-
             the-art acquisition methodologies for acquisition planning, execution,
             management, and closeout, and (2) an acquisition program that fully
             integrates with agencywide program and financial planning and execution.

             Issues

             Financial Management

                      Respond to the flat budget environment.

                      Improve the performance and functionality of the agency‘s core
                      financial system.

                      Implement a new travel management system.




                                                 17
Inspector General‘s Assessment of the Most Serious Management and Performance Challenges Facing NRC



       Procurement

                Respond to Commission direction to implement a 21st century
                acquisition program that will consider broader agency programmatic
                requirements.

                Implement an acquisition system that is integrated with the agency's
                core financial system.

       Assessment:

       Financial Management

       During FY 2012, OIG audits relevant to this challenge identified that NRC
       continues to have sound financial management practices. For example,
       the Audit of the NRC’s Financial Statements for Fiscal Year 2011 resulted
       in an unqualified audit opinion. Moreover, other OIG audits with financial
       aspects demonstrated that NRC is in compliance with Federal laws and
       standards related to financial management.

       OIG continues to monitor the agency‘s new core financial system, the
       Financial Accounting and Integrated Management Information System
       (FAIMIS). OIG periodically meets with the Office of the Chief Financial
       Officer to discuss ongoing issues with FAIMIS. Current audits demonstrate
       that OIG is committed to identifying areas needing improvement. OIG is
       currently conducting audits of NRC‘s budget execution process and travel
       charge card program, which require OIG auditors to review information
       generated from FAIMIS.

       Procurement

       OIG continues to monitor the agency‘s procurement activities through
       quarterly meetings with the NRC Division of Contracts. During FY 2012,
       OIG issued a report on an audit of NRC‘s contract award process.
       Additionally, OIG conducted an audit of a contract related to an agency
       system.

       Appendix C provides a list of OIG FY 2012 reports relevant to this
       challenge and examples of agency actions addressing the challenge.


                                           18
     Inspector General‘s Assessment of the Most Serious Management and Performance Challenges Facing NRC



CHALLENGE 7
Management of human capital.

            For several years, NRC experienced significant growth resulting from an
            increased interest in nuclear power. During FY 2012, NRC‘s workforce
            was approximately 4,000 staff positions and it is unlikely that NRC will see
            any growth over the next several years. Going forward, NRC will need to
            support increasing mandates within a zero-growth or declining budget
            environment. NRC must institutionalize an approach that focuses on its
            mission of protecting the public health and safety while remaining mindful
            of staff needs. To manage human capital effectively, while continuing to
            accomplish the agency‘s mission, NRC must continue to implement
            initiatives in the following areas:

                Reducing inefficiencies and overhead by centralizing and streamlining
                processes while maintaining or improving the level of customer service.

                Space planning.

            Issues

                Respond to the flat budget environment.

                Adapt training and development programs to the changing needs of
                agency staff.

                Address knowledge management in light of the high number of senior
                experts and managers who are or will be eligible to retire.

                Facilitate continuation of its space planning efforts, including completion
                of the Three White Flint North building at NRC headquarters.

            Assessment

            OIG continues to monitor the agency‘s budget and hiring practices through
            quarterly meetings with offices in the corporate management area.

            Additionally, during our audits and evaluations, OIG considers both
            budgeting information for NRC programs and training needs for staff and

                                                19
Inspector General‘s Assessment of the Most Serious Management and Performance Challenges Facing NRC



       makes recommendations, as appropriate, for improvements in these areas.
       For example, OIG discussed improvements needed in the training offered
       by the agency in reports concerning NRC‘s (1) contract award process; (2)
       management of import/export authorizations; (3) Inspections, Tests,
       Analyses, and Acceptance Criteria process; and (4) protection of
       Safeguards Information.

       With regard to the construction efforts of Three White Flint North, OIG
       continues to meet on a quarterly basis with the Directorate for Space
       Planning and Consolidation, Office of Administration. Updates on
       construction and any scheduling changes for the transition of staff to the
       new building are communicated during these meetings.

       OIG investigations completed during FY 2012 pertained to various human
       capital issues. For example, several investigations addressed misuse of
       the Government travel card by charging non-travel related expenses, and
       one identified a contractor‘s misuse of Government resources by viewing
       inappropriate material. While some of the individuals who misused these
       resources had received counseling that such activities were prohibited,
       continued misuse in these areas suggests a need for broader and clearer
       messaging in these areas. Another investigation identified that NRC
       managers and staff can do a better job of ensuring that employee official
       travel destinations are necessary to execute NRC‘s mission and to ensure
       that traveler-claimed expenses are authorized, necessary, and related to
       the official travel purpose. In a separate matter, OIG investigations
       identified an employee who provided fraudulent material to support a
       permanent change of station move.

       Appendix C provides a list of OIG FY 2012 reports relevant to this
       challenge and examples of agency actions addressing the challenge.




                                           20
      Inspector General‘s Assessment of the Most Serious Management and Performance Challenges Facing NRC



IV.   CONCLUSION

             The seven challenges contained in this report are distinct, yet are
             interdependent to accomplishing NRC‘s mission. For example, the
             challenge of managing human capital affects all other management and
             performance challenges.

             The agency‘s continued progress in taking actions to address the
             challenges presented should facilitate achieving the agency‘s mission and
             goals.




                                                 21
    Inspector General‘s Assessment of the Most Serious Management and Performance Challenges Facing NRC



                                                                                           Appendix A
OBJECTIVE, SCOPE, AND METHODOLOGY

    OBJECTIVE

            The evaluation objective was for the IG, in accordance with the Reports
            Consolidation Act of 2000, to update what he considers to be the most
            serious management and performance challenges facing the agency.

    SCOPE

            This evaluation focused on the IG‘s annual assessment of the most serious
            management and performance challenges facing the NRC. The
            challenges represent critical areas or difficult tasks that warrant high level
            management attention. To accomplish this work, the OIG focused on
            determining (1) current challenges, (2) the agency‘s efforts to address the
            challenges during FY 2012, and (3) planned agency efforts to address the
            challenges.

    METHODOLOGY

            OIG reviewed and analyzed pertinent laws and authoritative guidance,
            agency documents, and OIG reports, and sought input from NRC officials
            concerning agency accomplishments relative to the challenge areas and
            suggestions they had for updating the challenges. Specifically, because
            challenges affect mission critical areas or programs that have the potential
            to impact agency operations or strategic goals, NRC Commission
            members, offices that report to the Commission, the Executive Director for
            Operations, and the Chief Financial Officer were afforded the opportunity to
            share any information and insights on this subject.

            OIG staff conducted this evaluation from May through August 2012 at NRC
            headquarters.




                                               22
        Inspector General‘s Assessment of the Most Serious Management and Performance Challenges Facing NRC


                                                                                                Appendix B
CHANGES TO THE MANAGEMENT AND PERFORMANCE
CHALLENGES IN 2012

                The 2012 list of challenges reflects several changes from the 2011 list (see
                footnote below7 for a listing of the 2011 challenges):

                        Challenge 1 was reworded to ―Management of regulatory processes to
                        meet a changing environment in the oversight of nuclear materials‖ to be
                        parallel with Challenge 3‘s emphasis on the regulator‘s need to stay in
                        step with changing oversight environments.

                        Challenge 2, ―Management of internal NRC security and oversight of
                        licensee security programs,‖ now addresses physical security, information
                        security, personnel security, and nuclear security.

                        Challenge 4, ―Management of issues associated with the safe storage of
                        high-level radioactive waste when there is no long-term disposal
                        solution,‖ now focuses specifically on the high-level waste (with low-level
                        waste issues now addressed under Challenge 1).

                        Challenge 5, ―Management of information technology,‖ was revised to
                        focus on NRC‘s use of information technology (with the security aspects
                        of IT management now addressed under challenge 2).

                Additionally, minor editorial changes were made to challenges 3 and 7 for
                parallel grammatical structure. No changes were made to challenge 6.




7
  The 2011 challenges were: (1) Oversight of nuclear material used for civilian purposes, (2) Managing
information to balance security with openness and accountability, (3) Ability to modify regulatory processes
to meet a changing environment in the oversight of nuclear facilities, (4) Oversight of radiological waste,
(5) Implementation of information technology and information security measures, (6) Administration of all
aspects of financial management and procurement, and (7) Managing human capital.

                                                    23
        Inspector General‘s Assessment of the Most Serious Management and Performance Challenges Facing NRC



                                                                                               Appendix C
                      8
OIG REPORTS AND AGENCY ACTIONS ADDRESSING THE
MANAGEMENT AND PERFORMANCE CHALLENGES

                1. Management of regulatory processes to meet a changing
                environment in the oversight of nuclear materials.

                OIG Reports Addressing Challenge 1

                          Audit of NRC's Oversight of Decommissioned Uranium Recovery
                          Sites and Sites Undergoing Decommissioning, OIG-12-A-06
                          Audit of NRC’s Issuance of General Licenses, OIG-12-A-14
                          Audit of NRC’s Oversight of Industrial Radiography, OIG-12-A-15
                          Audit of NRC’s 10 CFR Part 31 General Licensing Program, OIG-
                          12-A-21

                Agency Actions Addressing Challenge 1

                NRC continues to work towards integrating the licensing and tracking of
                source materials under one management mechanism. While NRC has
                deployed upgrades to the National Source Tracking System, it also
                continues development of Web-Based Licensing and the License
                Verification System.

                In addition to collecting information in the National Source Tracking
                System, NRC launched a pilot inspection program to collect information on
                self-shielded irradiators and other irradiators. The purpose of the pilot is to
                assess the need to modify the current inspection program to determine
                if more frequent inspections would result in greater compliance with
                security requirements.

                NRC continues to work on issues regarding the continued disagreement in
                the medical community about the definition of a medical event.

                NRC has been working to resolve issues of material control and accounting
                in response to a 2003 OIG audit report. NRC has implemented a rule


8
  The listing of OIG reports addressing each challenge provides some of the audit and investigative reports
issued in the challenge area during fiscal 2012, but is not intended to be all-inclusive.

                                                    24
Inspector General‘s Assessment of the Most Serious Management and Performance Challenges Facing NRC



       change requiring improved reporting and reconciliation for licensees
       reporting to the Nuclear Materials Management and

       Safeguards System, and continues to verify the adequacy of material
       control and accounting of special nuclear material at NRC–licensed
       facilities. Additionally, the Commission has directed NRC staff to revise
       and consolidate current material control and accounting regulations into
       Title 10, Code of Federal Regulations, Part 74. The final rule and
       associated guidance is scheduled to be completed by December 31, 2012.

       2. Management of internal NRC security and oversight of licensee
       security programs.

       OIG Reports Addressing Challenge 2

                Independent Evaluation of NRC’s Implementation of the Federal
                Information Security Management Act (FISMA) for FY 2011, OIG-
                12-A-04
                Audit of NRC’s Management of the Baseline Security Inspection
                Program, OIG-12-A-10
                Audit of NRC’s Protection of Safeguards Information (SGI),
                OIG-12-A-12
                Mishandling of Personally Identifiable Information by an ILearn
                Contractor, OIG Case No. 11-26
                Evaluation Report- Information Security Risk Evaluation of Region II,
                Atlanta, GA, OIG-12-A-17
                Evaluation Report- Information Security Risk Evaluation of Region
                III, Lisle, IL, OIG-12-A-22

Agency Actions Addressing Challenge 2

       NRC participated in working groups with the National Archives and
       Records Administration‘s Controlled Unclassified Information Office (CUIO)
       to develop policies for marking, safeguarding, dissemination, decontrol,
       and destruction of CUI, and submitted NRC‘s CUI Implementation Plan to
       the CUIO. The agency also ensured that Privacy Act compliance activities
       were completed, such as Privacy Impact Assessments, requirements of
       Office of Management and Budget (OMB) Circular A-130, and OMB
       requirements for personally identifiable information. The agency updated

                                           25
Inspector General‘s Assessment of the Most Serious Management and Performance Challenges Facing NRC



       online personally identifiable information roles and responsibilities annual
       training to include role based scenarios.

       In FY 2012, the staff initiated plans to reintegrate the Security Cornerstone
       into the Reactor Oversight Process performance assessment program.
       The staff exhibited the NRC values of openness and integrity in its efforts
       to apprise all stakeholders of the details and timeframes associated with
       the implementation plan. Specifically, the staff issued a Regulatory Issue
       Summary and presented the implementation plan to internal and external
       stakeholders in various forums, including the 2012 Regulatory Information
       Conference and other public meetings. Reintegration of security into the
       Reactor Oversight Process assessment program also involves changes to
       the NRC‘s public Web site; these changes will be made in August 2012 to
       reflect licensee performance within the Security Cornerstone without
       disclosing sensitive, security-related information, consistent with current
       Commission policy.

       The Office of Nuclear Security and Incident Response supported multiple
       industry hosted public workshops on cyber security in order to increase
       awareness of NRC actions in this area. The office has worked with the
       university system and specifically the University of Maryland to exchange
       cyber security information.

       3. Management of regulatory processes to meet a changing
       environment in the oversight of nuclear facilities.

       OIG Reports Addressing Challenge 3

                Audit of NRC’s Use of Confirmatory Action Letters, OIG-12-A-09
                Audit of NRC’s Inspections, Tests, Analyses, and Acceptance
                Criteria (ITAAC) Process, OIG-12-A-16
                Audit of NRC’s Use of Orders, OIG-12-A-19

       Agency Actions Addressing Challenge 3

       NRC has embarked on a number of actions in response to the Japan
       nuclear accident in March 2011. Since then, the agency issued the first
       regulatory requirements for the Nation‘s 104 operating reactors based on
       the lessons-learned at Fukushima Dai-ichi. The NRC continues to evaluate


                                           26
Inspector General‘s Assessment of the Most Serious Management and Performance Challenges Facing NRC



       and act on the lessons learned to ensure that appropriate safety
       enhancements are implemented at U.S. nuclear power plants. NRC‘s
       activities are being led by a steering committee comprised of senior NRC
       management. Additionally, NRC established the Japan Lessons

       Learned Project Directorate, a group of more than 20 full-time employees
       focused exclusively on implementing the lessons learned.

       The staff is currently conducting oversight activities at the new power
       reactor construction sites at Vogtle and V.C. Summer. NRC‘s Region II
       has established a resident inspector‘s office at each site. Each office now
       has a construction senior resident inspector and two construction resident
       inspectors. In addition, Region II sends construction inspectors from the
       regional office to inspect construction activities at the sites. Furthermore,
       the agency has undertaken an effort to enhance the assessment of plant
       performance during construction through the development of a new
       assessment process. NRC staff began a 12-month pilot of the new
       program on January 2012 at the Vogtle construction site and on March
       2012 at the Summer construction site. The staff plans to provide
       recommendations to the Commission based on results of the pilot by April
       2013.

       NRC also undertook an effort to obtain feedback from rulemaking programs
       across the agency to address cumulative effects of regulation and other
       aspects of rulemaking.

       4. Management of issues associated with the safe storage of high-
       level waste when there is no long-term disposal solution.

       OIG Reports Addressing Challenge 4

       No reports were issued in FY 2012; an audit of NRC‘s oversight of spent
       fuel pools is planned for FY 2013.

       Agency Actions Addressing Challenge 4

       Because the U.S. Court of Appeals for the District of Columbia Circuit
       found that the NRC violated the National Environmental Policy Act in
       issuing its 2010 update to the Waste Confidence Decision and


                                           27
Inspector General‘s Assessment of the Most Serious Management and Performance Challenges Facing NRC



       accompanying Temporary Storage Rule, the Commission has directed
       NRC staff not to issue licenses for new reactors or to issue renewed
       licenses for existing reactors until the court‘s remand is appropriately
       addressed.

       Currently, NRC does not have active safety oversight responsibilities at the
       potential Yucca Mountain repository site. When the U.S. Department of
       Energy, Office of Civilian Radioactive Waste Management, discontinued
       site activities and closed its Yucca Mountain Project Office, the NRC closed
       its Las Vegas Onsite Representatives Office.

       Challenge 5. Management of information technology.

       OIG Reports Addressing Challenge 5

       No reports were issued in FY 2012; an audit on the Safeguards Local Area
       Network and Electronic Safe is underway and FY 2013 audits are planned
       to address NRC‘s information technology readiness for Three White Flint
       North and the Financial Accounting and Integrated Management
       Information System (FAIMIS).

       Agency Actions Addressing Challenge 5

       OIS published the NRC Open Government plans for FY 2013 and FY 2014.
       NRC‘s Open Government program intersects with OMB‘s Digital
       Government Strategy regarding the use of mobile technology to further
       stakeholder engagement. OMB‘s strategy provides a framework for
       moving information safely and securely to internal and external
       stakeholders and puts additional focus on making high value data more
       readily usable, irrespective of the technology used to access it.

       NRC continued to implement the National Source Tracking System with a
       focus on ensuring data integrity and increasing online usage of the system.
       The agency also leveraged information technology, including established
       listservs, to notify States regarding relevant NRC regulatory actions, and
       build an infrastructure to support more effective communication and
       outreach to Tribal governments.




                                           28
Inspector General‘s Assessment of the Most Serious Management and Performance Challenges Facing NRC



       The agency streamlined the NRC IT/Information Management governance
       process in keeping with current best practices and Office of Management
       and Budget requirements (e.g., using PortfolioStat and TechStat tools such
       as a training deck, guidance documents, briefing deck, and other various
       templates, and process). In addition, improvements were made to the
       Agencywide Documents Access and Management System to provide new

       features and capabilities to make the user experience more efficient and
       effective.

       The agency also continued to participate in planning and building the new
       headquarters building and datacenter to ensure efficient, cost-effective,
       and future-thinking IT infrastructure requirements are understood and
       included.

       NRC enhanced the base laptop program which provides several enabling
       technologies for mobile users and supports the capability to ‗Work from
       Anywhere.‘ Enhancements included the addition of WiFi capability on
       Mobile Desktops and agency loaner laptops.

       An effort is underway to offer the Bring your Own Device service to provide
       agency staff with secure, remote access to agency e-mail, calendar, and
       contact data on personally owned mobile devices (e.g., tablets and
       smartphones).

       Challenge 6. Administration of all aspects of financial management
       and procurement.

       OIG Reports Addressing Challenge 6

                Independent Evaluation of NRC’s Contract Award Process, OIG-12-
                A-02
                Results of the Audit of the United States Nuclear Regulatory
                Commission’s Financial Statements for Fiscal Year 2011, OIG-12-A-
                03
                Independent Auditor's Report on the U.S. Nuclear Regulatory
                Commission's Special-Purpose Financial Statements as of
                September 30, 2011, and for the Year Then Ended, OIG-12-A-05



                                           29
Inspector General‘s Assessment of the Most Serious Management and Performance Challenges Facing NRC



                Audit of NRC's Implementation of the Federal Managers' Financial
                Integrity Act for Fiscal Year 2011, OIG-12-A-07
                Independent Auditor's Report on the Condensed Financial
                Statements, OIG-12-A-08
                Audit of NRC’s FY 2011 Compliance With the Improper Payment
                Elimination and Recovery Act of 2010, OIG-12-A-11
                Audit of NRC's Management of Import/Export Authorizations,
                OIG-12-A-13
                Audit of NRC‘s Contract Administration of the EPM contract, OIG-
                12-A-18
                Audit of NRC‘s Oversight of the Agency‘s Federally Funded
                Research and Development Center, OIG-12-A-20


       Agency Actions Addressing Challenge 6

       Financial Management

       As with many other Federal agencies, NRC has had to meet its mission in
       the face of budget cuts that have flattened the agency‘s budget. NRC has
       worked to reorganize its budget process in an effort to target areas of
       inefficiencies. NRC also established a Transforming Assets into Business
       Solutions Task Force to analyze and assess NRC‘s business practices and
       develop a plan to reduce the duplication of efforts in corporate and office
       support areas. The agency is continuing to implement the
       recommendations of the task force.

       At the beginning of FY 2011, NRC deployed its new core financial
       management system, FAIMIS. During FY 2012, the agency transferred the
       hosting responsibilities for FAIMIS to a new service provider. While
       FAIMIS has been operational for nearly two fiscal years, there are still a
       number of functionalities that need improvement including: (1) the reports
       used by agency staff to reconcile budget and accounting information, and
       (2) the cost accounting module. To address operational challenges of
       FAIMIS, the agency has continued to employ several change management
       and organizational communication strategies.

       Regarding NRC‘s travel management system, the current contract for the
       governmentwide eTravel system expires at the beginning of FY 2014. The

                                           30
Inspector General‘s Assessment of the Most Serious Management and Performance Challenges Facing NRC



       General Services Administration announced a new vendor in June 2012;
       however, procurement activities have been suspended pending resolution
       of a protest from an unsuccessful bidder.

       Procurement

       NRC executed its first enterprise-wide contract in the area of education and
       training through its strategic acquisition effort. This resulted in the
       reduction from 13 vendors to 3 and significant cost savings. Further
       initiatives are underway in the areas of information technology, meetings
       and conferences, and technical assistance/research.

       Additionally, on May 31, 2012, NRC entered into an interagency agreement
       with Department of Transportation for the implementation of a
       new acquisition system. This system will be integrated with FAIMIS. The
       agency expects the system to be fully implemented by early FY 2014.

       Challenge 7. Management of human capital.

       OIG Reports Addressing Challenge 7

                Independent Evaluation of NRC’s Contract Award Process,
                OIG-12-A-02
                Audit of NRC’s Protection of Safeguards Information, OIG-12-A-12
                Audit of NRC’s Management of Import/Export Authorizations,
                OIG-12-A-13
                Audit of NRC’s Inspections, Tests, Analyses, and Acceptance
                Criteria, OIG-12-A-16
                Questionable Travel Claims by Office of Nuclear Materials Safety
                and Safeguards Employees, Case No. 08-51
                Misuse of Government Travel Card, Case Nos. 11-34, 11-36,
                and 11-39
                Misuse of Government Computer by an Office of Information
                Services Contractor Employee, Case No. 11-62
                Misuse of NRC Citibank Travel Credit Card and Change of Station
                Fraud by an Office of New Reactors Employee, Case No. 11-01




                                           31
Inspector General‘s Assessment of the Most Serious Management and Performance Challenges Facing NRC



       Agency Actions Addressing Challenge 7

       As NRC continues to transition from a period of aggressive growth to a flat
       budget, it is critical that the agency has the most effective organizational
       structure possible. Agency staffing levels have stabilized and it is unlikely
       that the agency will see any growth over the next several years. As a
       result, the agency is currently working to institutionalize a workforce
       planning process that will ensure the agency has the appropriate number of
       staff with the right skills and experience to ensure successful job
       performance and realization of organizational objectives.

       The agency has also implemented three enterprise wide knowledge
       management initiatives: (1) identifying high-value/high-risk (of loss)
       knowledge and skills the Agency currently possesses; (2) capturing and
       sharing that high-value/high-risk knowledge with other agency staff before
       it is lost; and (3) identifying high-value opportunities for creation of
       communities of practice that enable the sharing of knowledge and skills
       among those employees who perform the same job function.

       Additionally, the relocation of headquarters staff to Three White Flint North
       is scheduled to be completed by March 2013. Currently, to access Three
       White Flint North, agency employees will have to cross Marinelli Road, a
       multi-lane road. There is no funding in the budget for either above ground
       or underground pedestrian access between One White Flint North and
       Three White Flint North. The Montgomery County Department of
       Transportation and NRC are continuing to work together to maximize
       pedestrian safety around the White Flint complex.




                                           32
